                               NATIONAL SCIENCE FOUKSAT3GN
                                   4201 WILSON BOULEVARD
                                  ARLINGTON, VIRGINIA 22230




     OFFICE OF
 INSPECTOR GENERAL




             To:     File                            r.?




           From:


           Date:     8-12-96                                                                          I
       Subject:      Closeout Memo
                                                                            41

       Pursuant to an anonymous request, we investigated Grant No.                            to
determine whether NSF funds were being used to improperly reimburse a Principal
Investigator for international travel. Specifically, on 6-20-96, this office received a facsimile
transmission from an anonymous source, which suggested that NSF funds were being used to
improperly support a grantee's ''~acation.~ The facsimile included a letter fro-
          the Principal Investigator on the above-referenced grant, requesting that travel
           salary be paid from the NSF grant, for grant-related research to be performed in
     , Germany.
          Upon review of the grant file, we determined that                      , Program Director
for the
           approved the re uest for funds by a memorandum to the grant file dated 5-16-95.
 This memo was faxed t                       advising him that a written request was needed.          I
 By correspondence dated 5-23-95, Dr.                     , Director of the         Office of
 Sponsored Programs, formally
                       P        requeste t at            d salary funds be authorized for
r e s e a r c hi           r Germany.



                                                                                                      !
                                                                                                      I
